No. 20-157

 

 

IN THE

Supreme Court of the United States

EDWARD A. CANIGLIA
Petitioner
v.
ROBERT F. STROM, ET AL
Respondents

On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR AMICUS CURIAE
AMERICAN ASSOCIATION OF
SUICIDOLOGY SUBMITTED IN

SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,883 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 15, 2021.

Colin Casey A

Wilson-Epes Printing Co., Inc.
